                      UNITED STATES DEPARTMENT OF EDUCATION
                                         OFFICE OF THE INSPECTOR GENERAL




                                                            April 5, 2007


Memorandum
TO:            Kerri L. Briggs, Ph.D.
               Acting Assistant Secretary for Elementary and Secondary Education

FROM:          Helen Lew /s/
               Assistant Inspector General for Audit Services

SUBJECT:       Final Inspection Report
               Inspection of the Department’s ESEA Secretarial Waiver Requirements
               Control Number ED-OIG/I13H0003


This final inspection report presents the results of our inspection of the Department’s Secretarial
Waiver reporting and publication requirements defined in the Elementary and Secondary
Education Act (ESEA), as amended by the No Child Left Behind Act of 2001 (NCLB). The
objectives of our inspection were to determine whether the Department (1) provided the ESEA
Secretarial Waiver reports to Congress as required by the statute, and (2) met the publication
requirements for waivers in the statute.



                                           INSPECTION RESULTS

FINDING – The Department Did Not Provide ESEA Secretarial Waiver Reports to
          Congress and Had Not Met All the Publication Requirements for
          Waivers in the Statute

The ESEA requires that the Department send an annual report to Congress summarizing
Secretarial Waiver activities under NCLB. Section 9401(e)(4) of the ESEA states:

       REPORT TO CONGRESS – Beginning in fiscal year 2002 and for each
       subsequent year, the Secretary shall submit to the Committee on Education and
       the Workforce of the House of Representatives and Committee on Health,
       Education, Labor and Pensions of the Senate a report –
            (A) summarizing the uses of waivers by State educational agencies, local
                  educational agencies, Indian tribes, and schools; and
            (B) describing whether the waivers –
                                       400 MARYLAND AVE., S.W., WASHINGTON, D.C. 20202-1510

               Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
                   (i)    increased the quality of instruction to students; or
                   (ii)   improved the academic achievement of students.

In addition, the ESEA requires the Department to disseminate Secretarial Waiver activities to the
public. Section 9401(g) of the ESEA states:

       PUBLICATION – A notice of the Secretary’s decisions to grant each waiver…
       shall be published in the Federal Register and the Secretary shall provide for the
       dissemination of the notice to State educational agencies, interested parties,
       including educators, parents, students, advocacy and civil rights organizations,
       and the public.

Since 2002, the Department has granted 197 Secretarial Waivers under Section 9401. The
following chart details the types of Secretarial Waivers the Department has granted:

 Type of Waiver                           2002     2003      2004      2005      2006    Total
 Waivers Related to Hurricanes
                                            0          0       0         5       13         18
 Katrina and Rita
 Growth Model Pilots                        0          0       0         0        5          5
 Waivers Allowing Local
 Educational Agencies (LEAs) in
 the First Year of Improvement to
                                            0          0       0         1        5          6
 Provide Supplemental Educational
 Services (SES) Rather Than Public
 School Choice
 Waivers Allowing LEAs in Need
 of Improvement to Become SES               0          0       0         2        4          6
 Providers
 General Programmatic Waivers               1          3       4         0        2         10
 Waivers of the Obligation Period           0         17       4         3        0         24
 Waivers of Administrative Cost
                                          12          33      44        39        0      128
 Limitation in Indian Education
 Total                                    13          53      52        50       29      197

Reports to Congress
The Department did not submit an annual report to Congress in each of the years since 2002.
Department officials could not explain why the Department did not submit annual reports to
Congress. Department officials stated that in the near future the Department would submit a
report to Congress of all Secretarial Waiver activity since 2002.

Publication in the Federal Register
As of the start of our inspection on February 8, 2007, the Department had not published a notice
of the Secretary’s decision to grant each waiver in the Federal Register. Department officials
could not provide a definitive explanation for failing to publish a notice in the Federal Register.
A Department official explained that staff members who might have been responsible for
Secretarial Waiver reporting requirements are no longer with the Department. Another


                                                  2
Department official suggested the number of Secretarial Waivers issued had not been significant
enough to warrant publication in the Federal Register.

On March 12, 2007, the Department published a list of Secretarial Waivers in the Federal
Register. The notice stated that these were the waivers granted from the date of NCLB’s
enactment through December 31, 2006.

Dissemination to the Public
The Department uses its website as a primary means of disseminating waiver notices to the
public. As of the start of our inspection on February 8, 2007, the Department provided general
information for waivers on a page titled “Flexibility and Waivers.” The section on Secretarial
Waivers included only a link to the statute and archived waiver guidance and policy under
Section 14401 of the Improving America’s Schools Act of 1994, which is the corresponding
waiver authority in the ESEA predecessor to NCLB. The page did not include links to
information on any of the Secretarial Waivers granted since 2002.

The Department’s website contained separate pages that provided information for waivers
granted under (1) the Hurricane Katrina and Rita waivers, (2) the growth model pilots, and (3)
the SES waivers. 1 This information was not available in a central location that directly linked to
Secretarial Waivers under Section 9401. Additionally, the Department had not published
information on its website for (1) its general programmatic waiver decisions, (2) its obligation
period waiver decisions, and (3) its administrative cost limitation in Indian education waivers.

On February 26, 2007, the Department created a central location for Secretarial Waiver
information on its website, titled “Waivers Granted Under No Child Left Behind,” that includes a
comprehensive listing of waivers granted under Section 9401 since 2002. The Department’s
“Flexibility and Waivers” page now includes a link to this page.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education comply
with the provisions of the NCLB waiver authority by:

1.1     Annually submitting to Congress a report summarizing the use of Secretarial Waivers by
        SEAs, LEAs, Indian tribes, and schools, and describing whether the waivers increased the
        quality of instruction to students or improved the academic achievement of students.

1.2     Regularly publishing a notice of the Secretary’s decision to grant each Secretarial Waiver
        in the Federal Register.




1
 SES waivers allowed (1) LEAs in the first year of improvement to provide SES and (2) LEAs in need of
improvement to become SES providers.


                                                       3
                             DEPARTMENT COMMENTS

On March 13, 2007, we provided the Department with a copy of our draft report for comment.
We received the Department’s comments to the report on March 27, 2007. We have summarized
the Department’s comments and included our response below. The Department’s response, in its
entirety, is attached.

The Department generally concurred with our finding and recommendations. The Department
stated that it recently published in the Federal Register a notice of all waivers granted under
Section 9401 and had updated its Internet site to include this waiver information. In addition, the
Department stated that it would soon be submitting a report to Congress on waivers granted
under Section 9401, and it intends to complete reporting, publication, and dissemination
responsibilities in a more timely manner. The Department also stated that the requirement for
publishing in the Federal Register does not include specific timelines.

We recognize that the Federal Register does not provide a specific timeline; however, the
Department did not publish a notice of waivers granted under Section 9401 between 2002 and
2006 until March 2007.


                                      BACKGROUND

Secretarial Waivers are authorized under Section 9401 of the ESEA, as amended by the NCLB.
Section 9401 states, “the Secretary may waive statutory or regulatory requirements of this Act
for a State educational agency, local educational agency, Indian tribe, or school through a local
educational agency” that receives funds under a program authorized by NCLB and requests a
waiver.


                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our inspection were to determine whether the Department (1) provided the
ESEA Secretarial Waiver reports to Congress as required by the statute, and (2) met the
publication requirements for waivers in the statute.

We began our fieldwork on February 8, 2007, and we conducted an exit conference on March
12, 2007. We interviewed Department staff in the Office of Elementary and Secondary
Education (OESE) and the Office of General Counsel (OGC). We reviewed waiver decision
documentation between 2002 and 2006 provided by officials in these offices. To provide limited
assurance for the completeness of the documentation, we conducted Internet searches of
Secretarial Waiver activity and did not identify any Secretarial Waivers that had not been
provided to us. We also reviewed information available on the Department’s website.




                                                4
Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.


                            ADMINISTRATIVE MATTERS

An electronic copy of this final inspection report has been provided to your Audit Liaison
Officer. We received your comments, which generally concurred with our finding and
recommendations.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). Department policy requires that you enter your final corrective
action plan (CAP) for our review in the automated system within 30 days of the issuance of this
report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


Electronic cc: Wendy Tada, Chief of Staff, ODS
               Anne Campbell, Chief of Staff, OESE
               Delores Warner, Audit Liaison Officer, OESE
               Dennis Koeppel, General Attorney, OGC
               Rich Rasa, Director, State and Local Advisory and Assistance Team, OIG




                                                5
